         OFFICE OF JUSTICE PROGRAMS 

       NATIONAL INSTITUTE OF JUSTICE 

COOPERATIVE AGREEMENTS AND GRANTS AWARDED

                    TO THE

NATIONAL FORENSIC SCIENCE TECHNOLOGY CENTER 

               LARGO, FLORIDA 




          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



          Audit Report GR-40-09-005 

               September 2009

                  OFFICE OF JUSTICE PROGRAMS 

                NATIONAL INSTITUTE OF JUSTICE 

      COOPERATIVE AGREEMENTS AND GRANTS AWARDED TO THE 

         NATIONAL FORENSIC SCIENCE TECHNOLOGY CENTER 

                        LARGO, FLORIDA


                                EXECUTIVE SUMMARY 


       The Office of the Inspector General, Audit Division has completed an
audit of cooperative agreement numbers 2000-RC-CX-K001 and
2006-MU-BX-K002, and grant number 2004-DN-BX-0079 awarded by the
Office of Justice Programs (OJP) through its National Institute of Justice
(NIJ) to the National Forensic Science Technology Center (NFSTC).1 The
NFSTC was established by the American Society of Crime Laboratory
Directors in 1995 to provide services to forensic laboratories. Beginning in
April 2000, the cooperative agreements were awarded to expand the range
and scope of services the NFSTC could offer to forensic laboratories. As of
2008, services include audits and training opportunities offered to the
forensic community.

      NIJ funding for the NFSTC totaled approximately $44.7 million in seven
cooperative agreements that were awarded between April 2000 and
December 2007.2 Of this total, $20.9 million was from congressional
earmarks specifically for the NFSTC. The NIJ provided another $13.3 million
to the NFSTC in non-competitive awards, with the remaining $10.5 million
provided in competitive awards made in 2007.

      We tested compliance with essential grant conditions pertaining to
accomplishments, reporting, fund drawdowns, budget management and
control, and expenditures. In addition, we tested the accounting records to
determine if costs claimed under the awards were allowable, supported,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the cooperative agreements.




       1
           The NIJ awarded cooperative agreements instead of grants for two of these awards.
Cooperative agreements are used when substantial collaboration is anticipated between the
grantor and the grantee. Cooperative agreements are subject to the same rules as grants,
and we used “cooperative agreements” to refer to the agreements and the grant throughout
this report.
       2
          Of this $44.7 million, $1,346,086 was funding from the Bureau of Justice Assistance,
which is another OJP office. However, internal decisions by OJP resulted in the management
of the awards by the NIJ.


                                          ii
      We found the NFSTC generally complied with the agreement objectives
we tested. However, we found weaknesses in the NFSTC’s reporting on
performance objectives, supporting drawdowns, and accounting for
expenditures. We also identified $252,336 in questioned costs.3 The
specific findings follow.

   	 The NFSTC did not report its progress on four of its objectives.

   	 The NFSTC did not maintain adequately detailed documentation to
      support its drawdowns.

   	 The NFSTC did not account for expenditures by individual agreement
      through December 2007, as required by the OJP Financial Guide. In
      January 2008, NFSTC implemented a new accounting system that
      should account for expenditures by individual agreement.

   	 The NFSTC drew down $229,229 in unallowable indirect expenses for
      which it did not have an approved indirect cost rate. This is part of a
      shift of $744,395 from one cooperative agreement to another.

   	 The NFSTC charged $11,348 in unsupported expenses to the 

      cooperative agreements. 


   	 The NFSTC charged $364 in unallowable direct expenses to the 

      cooperative agreements. 


   	 The NFSTC charged $11,395 in unreasonable expenses to the 

      cooperative agreements. 


     These concerns are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.




       3
          The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs and funds put to better use. However, not all findings are
dollar-related. See Appendix II for a breakdown of our dollar-related findings and for a
definition of questioned costs.



                                          iii
